             .,   .. .   Closeout of M93020005

                              ry 3 , 1993, when OIG received a
                                the complainant. He is a former
                               rtment                      at the
                                 compla?rit   was against various
                                of t        h    e     . They are
not named individually in the letter, but are mentioned in the
attached documentation.
The a1legations were that in various ways these individuals had
abused and harassed him personal   and had deprived him of his
rights as a                         during the period of his
I .          He also mentioned political, ethnic, and religious
discrimination.
OIG determined that the complainant had not been working on an NSF-
supported project at the time of these alleged incidents. Hence,
whatever happened is not under NSFrs jurisdiction. Moreover, none
of the alleged incidents involve misconduct in science. Rather,
they are personal and university matters that do not involve the
unethical performance of research or education in science or
engineering. NSF is in no position to remedy such situations. For
these reasons, the case is being closed without a finding of
mi-sconduct .




March 31, 1993




Copies:   Inspector General
          Assistant IG for Oversight
